Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 REVIEW AND ADJUSTMENT OF
      SUPPORT ORDERS




                   JUNE GIBBS BROWN
                    Inspector General

                       March 1999
                      OEI-05-98-00100
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago regional office prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                                  HEADQUARTERS

Joe Penkrot, Project Leader                             Alan Levine, Program Specialist
Victoria Jacobs, Lead Analyst                           Linda Hall, Program Specialist
                                                        Rada Spencer, Program Specialist


        To obtain copies of this report, please call the Chicago Regional Office at 312-353-4124.
   Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

This inspection describes the States' methods of reviewing and adjusting child support orders
since welfare reform.

BACKGROUND AND METHODOLOGY

The Personal Responsibility and Work Opportunities Reconciliation Act (PRWORA) of 1996
substantially changed States' responsibilities to review and adjust child support orders. Under
PRWORA, periodic reviews of child support orders are no longer required. Child Support
Enforcement agencies (called IV-D agencies) are required to notify all parents, public assistance
and non-public assistance, custodial and non-custodial, every 3 years, of their rights to request
reviews of their child support orders. The IV-D agencies must conduct a parent-requested review
if none has been performed within the last 3 years. States may act on behalf of public assistance
custodial parents and initiate a review.

To obtain information on how States now address review and adjustment of child support orders,
we surveyed the IV-D directors in all States. In addition to this survey, we collected more in-
depth information through site visits to 10 States: New York, Massachusetts, Vermont,
Michigan, Minnesota, Iowa, Mississippi, Oklahoma, Nevada and Oregon.

Subsequent to our field work and draft report, the President issued the proposed fiscal year 2000
budget calling for the restoration of the periodic review of public assistance child support orders.
In our draft report, we urged a reevaluation of Federal review and adjustment policies in light of
the merits of periodic reviews as demonstrated by the OIG’s past research, other recent research
cited in this report, and caseworker interviews. The findings and recommendations in this report
speak to current conditions and suggest ways to improve the current processes. Our
recommendations will still apply if the review and adjustment changes the Administration
proposes become law.

FINDINGS

Thirty-two States have discontinued or plan to discontinue the triennial review of public
assistance cases. As a result, most child support orders will not be reviewed unless a parent
requests the review or a IV-D worker elects to initiate a review.

Twenty-eight States no longer review all of their public assistance child support orders every 3
years as previously required under Federal law. Four additional States plan to discontinue the
triennial review by the year 2000. Of the eight States with the largest volume of child support
orders, only Ohio plans to continue to review all public assistance child support orders every 3

                                          )))))))))))
                                               i
years. Most of the States will rely on parental requests and caseworker discretion to initiate
reviews.

We have concerns about four implementation issues: notification of parents of the right to
request a review, medical support, collection of basic data and downward adjustments.

Nine States do not have plans to notify parents of their right to request a review of their child
support order every 3 years and therefore may be out of compliance with Federal law. In the
majority of States we visited, local offices do not always adjust orders to add medical support
when it is found to be available in a review. Most States have very little data on the reviews and
adjustments the State conducts. Many States treat downward adjustments of support orders
differently than upward adjustments.

Increased computer system capabilities and a focus on administrative rather than judicial
remedies facilitate the review and adjustment process.

Improvements in automated systems, the use of child support guidelines and an increasing reliance
on administrative rather than judicial processes have converged to make review and adjustment
simpler and less resource intensive for the local office caseworker.

The majority of caseworkers interviewed said that periodic IV-D initiated reviews are
worthwhile to conduct.

While no States have cost-benefit data on their overall review and adjustment process, the
majority of caseworkers we interviewed felt that the benefits of conducting reviews outweighed
the costs. Likewise, the results of a modification demonstration project in Genesee County,
Michigan and a November 1997 Assistant Secretary for Planning and Evaluation report highlight
the benefits of conducting periodic reviews.

RECOMMENDATIONS

As noted above, the President has included a proposal to restore periodic reviews in his fiscal year
2000 budget. This proposal is responsive to our findings of reduced State review activity,
process improvements, and the merits of a triennial review policy. In addition to the proposed 3
year review of support orders for TANF families, we feel the Office of Child Support
Enforcement should:

Remind States that they are required to notify parents every 3 years of their right to
request a review of child support orders.

The PRWORA requires States to provide notice to parents every 3 years, informing them of their
right to request a review of their order. Since some States are unclear on this point, the Office of


                                          )))))))))))
                                               ii
Child Support Enforcement (OCSE) should provide State IV-D agencies with clarification on this
requirement.

Urge States to use the review and adjustment process as an opportunity to ensure that
medical support is provided.

The OCSE should urge States to use the review and adjustment process as an opportunity to
ensure that medical support is provided if and when it is available. Where needed, OCSE should
also work with IV-D agencies to encourage the judiciary in their State to adjust cases to add
medical support even if no monetary change to the support order will occur.

Encourage States to collect basic data on the review and adjustment process as well as cost-
benefit data including requests for downward modifications.

Most States do not have any data on the review and adjustment process. These States are unable
to report information on reviews they conduct or the success of these reviews. The OCSE should
encourage States to track basic information on the reviews the IV-D offices initiate, the reviews
the offices conduct in response to parental requests, including requests for downward
adjustments, and the costs and benefits of these reviews.

Encourage States to review child support orders for families leaving welfare

In addition to periodically reviewing support orders on public assistance cases, reviews targeted
to parents exiting from TANF warrant particular attention. Reviews conducted as parents exit
from TANF would likely benefit the government through reduced welfare recidivism and
avoidance of the costs associated with receipt of other public benefits. By referring cases near
welfare exit to the local child support office for review, TANF agencies may contribute to the
families’ self-sufficiency when off welfare and help government avoid the costs of further
dependence on public benefits. This type of coordination would serve as a good example of how
TANF and Child Support agencies can work together to achieve the goals of welfare reform.


AGENCY COMMENTS

All agency comments were made to our draft report which preceded the President’s proposed
budget. That proposal calls for a restoration of the triennial review of child support orders by
States on public assistance cases. The Assistant Secretary for Children and Families (ACF) and
the Assistant Secretary for Management and Budget (ASMB) provided formal comments to the
draft report, while ASPE provided informal comments. All concurred with the report’s findings
and recommendations and offered suggestions for clarifying the report and making technical
changes. Where appropriate, we changed the report to reflect their comments.



                                         )))))))))))
                                              iii
Among other things, ACF asked that we recognize their efforts in providing information on
review and adjustments. We added language to the body of the report that recognizes steps that
ACF has made in this area. The ASMB, while agreeing with the recommendations in our draft
report, had questions about the cost of reevaluating Federal review and adjustment policies. In
light of the President’s budget proposal, we eliminated this recommendation. The ACF and
ASMB comments are included in Appendix B.




                                        )))))))))))
                                             iv
                                TABLE OF CONTENTS


                                                                                                                                 PAGE

EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 ! Discontinuing triennial reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 ! Concerns about notification, medical support, data collection and downward adjustments . . 7


 ! Computer capabilities and administrative reviews and adjustments . . . . . . . . . . . . . . . . . . . 10


 ! IV-D workers views on periodic reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


A: Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

                            INTRODUCTION


PURPOSE

This inspection describes the States' methods of reviewing and adjusting child support orders
since welfare reform.

BACKGROUND

In addition to eliminating the Aid to Families with Dependent Children (AFDC) program, the
Personal Responsibility and Work Opportunities Reconciliation Act (PRWORA) of 1996
substantially changed States' responsibilities to review and adjust child support orders.
Previously, the Family Support Act of 1988 required State child support agencies (called IV-D
agencies) to review AFDC cases at least every 3 years. These reviews were meant to ensure that
child support orders were commensurate with non-custodial parents' earnings. New and modified
child support orders were to be based on State-established guidelines and medical support was to
be ordered if the non-custodial parent's employer made it available.

Under PRWORA, periodic reviews of child support orders are no longer required. Rather, State
IV-D agencies may opt for up to three methods of reviewing and adjusting child support orders.
State IV-D agencies may elect to continue the traditional review method, under which information
pertaining to the order is collected and reviewed against the guidelines to determine if an
adjustment is appropriate. States may also use a limited automated method, under which the
order is matched against State data (i.e. tax or wage) to determine if an adjustment is appropriate.
In addition, State IV-D agencies may use Cost of Living Adjustments (COLA) to adjust orders
periodically without reviews. Besides State variation in reviewing and adjusting orders, many IV­
D programs are operated by counties. So within a State, county IV-D agencies may choose
between the different approaches to review and adjustment.

Every 3 years, IV-D agencies are required to notify all parents, public assistance and non-public
assistance, custodial and non-custodial, of their rights to request reviews of their child support
orders. The IV-D agencies must conduct a parent-requested review if none has been performed
within the last 3 years. If it has been less than 3 years since the order was last reviewed, IV-D
agencies may place limits on the frequency of reviews or monetary thresholds before proceeding
with the requested reviews or adjustments. When any child support adjustment is proposed,
regardless of the method used, the IV-D agencies must notify the affected parties and offer the
opportunity to contest the proposed change.




                                         )))))))))))
                                              1
States may act on behalf of custodial parents receiving Temporary Assistance to Needy Families
(TANF)1 and initiate a review. Few requests for review and adjustment from TANF custodial
parents are expected since they assign child support collections to the State when they enroll in
TANF. Thus, these parents have little incentive to request a review.

Earlier Office of Evaluation and Inspections studies urging systematic and periodic review of child
support orders2 demonstrated that many child support orders were established when the non-
custodial parents were young and/or earned little money. Once established, these orders were
seldom, more often never, reviewed and adjusted. The Family Support Act addressed these
issues. Consequently, many old child support orders were updated to meet child support
guidelines. Newly-established child support orders were required to follow these guidelines in
determining appropriate support obligations.

A four State review and adjustment demonstration, authorized under the Family Support Act,
showed that increased collections due to adjustments surpassed the cost of conducting reviews
and adjustments. The overall benefit-cost ratio from the review and modification effort was 2.71.
Reviews conducted on both AFDC and non-AFDC cases proved to be cost-beneficial.3

It is unknown what effect the PRWORA changes to reviews and adjustments will have on child
support collections. If States opt to discontinue their periodic review of public assistance cases,
potential increases in public assistance collections may be forfeited. Besides potential losses in
State and Federal collections on behalf of TANF clients, the PRWORA changes may negatively
affect these clients. If child support orders for TANF parents are not modified regularly, custodial
parents leaving the program may have a more difficult time attaining self-sufficiency.

The absence of periodic reviews may also impact non-custodial parents adversely. Periodic
incremental increases in child support payments may be easier for non-custodial parents to comply
with than a very large increase at one time. In addition, when IV-D agencies periodically review
court orders to determine if the amounts ordered are equitable, non-custodial parents may have
support orders reduced if their earnings decrease. Some IV-D agencies feel the willingness of
their agency to show an evenhanded approach toward non-custodial parents may improve child
support collections. Under PRWORA, it is now incumbent on custodial and non-custodial
parents to specifically request a review to adjust their order to reflect income changes in States
that discontinue the systematic triennial reviews.


       1	      The TANF program succeeds the AFDC program and aims at enabling families to exit from welfare
               through work and with assistance from child support and transitional benefits like Medicaid,
               transportation and child care.

       2	      "Child Support Enforcement Collections on AFDC Cases - Modification of Court Orders," OEI-05-86-
               00035 and "Child Support Enforcement Collection For Non-AFDC Clients," OEI-05-88-00340.

       3       Caliber Associates. 1992. “Evaluation of Child Support Review and Modification Demonstration Projects
               in Four States.” Cross-site final report. Fairfax, VA.

                                               )))))))))))
                                                    2
Since PRWORA, the Office of Child Support Enforcement (OCSE) has taken a number of steps
to ensure that States are aware of the legislative requirements. The OCSE issued a legislative
implementation guide on review and adjustment, held a national review and adjustment forum and
briefed their regional offices on the new review and adjustment mandates for States.

The OCSE has also funded four pilot review and adjustment programs. Alaska, Vermont and
Maine will test different automated approaches to identifying, reviewing and adjusting child
support orders. Oklahoma will attempt to solicit more parental requests for review and
adjustments through an outreach program.4 The demonstration projects are to be conducted from
October 1997 through September 2000. The OCSE also awarded a cross-site evaluation of these
projects.

SCOPE AND METHODOLOGY

This evaluation is an early assessment of how States implement the review and adjustment
changes in PRWORA. To obtain information on how States address review and adjustment of
child support orders, we surveyed the IV-D directors in all States as well as the District of
Columbia, Puerto Rico and Guam.5 In addition to this survey, we collected more in-depth
information through site visits to 10 States: Iowa, New York, Nevada, Massachusetts, Michigan,
Minnesota, Mississippi, Oklahoma, Oregon and Vermont. We selected these States to represent a
geographic mix and a mix of State approaches to review and adjustment. We also selected States
with both county-administered and State-administered systems and 2 of the 4 States awarded
OCSE demonstration grants for review and adjustment pilot programs.

In each State visited, we interviewed State IV-D staff responsible for review and adjustment and
conducted two local office visits.6 In the local offices we interviewed a manager and a
caseworker. We spoke to 19 local office managers and 19 caseworkers.

We asked all respondents basic descriptive questions regarding COLAs, IV-D initiated reviews,
and reviews conducted in response to parental requests. On the survey we asked all States how
they used each of these three means to conduct reviews. On our site visits, we asked more in-
depth questions regarding State and local implementation of the review and adjustment process.
We made our site visits between January and April 1998 and collected survey data through July
1998.



       4	      Additional information on Oklahoma’s project is contained in our companion report “Review and
               Adjustment of Support Orders in Ten States,” OEI-05-98-00102.

       5       In this report, we include all 53 respondents when referring to States.

       6	      In Minnesota we only visited one local office since this State was visited during the pre-inspection phase of
               our study.


                                                 )))))))))))
                                                      3
We solicited 1997 summary data on review and adjustment through our survey and site visits. In
addition, we collected and reviewed any evaluations or other reports available on review and
adjustment activities in our site visit States.

We limited this inspection to a description of the review and adjustment processes IV-D agencies
currently use. We did not perform a case review. We did not compare or rank IV-D agencies or
compare review and adjustments now to those performed prior to PRWORA. We did not directly
assess the affect of review and adjustment on TANF clients. We also did not identify or establish
a definitive standard for reviewing and adjusting child support orders.

Our review was conducted in accordance with the Quality Standards for Inspections issued by
the President's Council on Integrity and Efficiency.




                                        )))))))))))
                                             4
                                          FINDINGS

Thirty-two States have discontinued or plan to discontinue the triennial review of public
assistance cases. As a result, most child support orders will not be reviewed unless a parent
requests the review or a IV-D worker elects to initiate a review.

Twenty-eight States no longer review all of their public assistance child support orders every 3
years as previously required under Federal law. While 17 States still conduct these reviews, 4
States plan to discontinue the triennial review by the year 2000. In most of these States, review
of child support orders will depend upon parent request or the discretion of a IV-D worker. Of
the eight States7 with the largest volume of child support orders, only Ohio plans to continue to
review all public assistance child support orders every 3 years. In addition to the termination of
the triennial review, States are implementing other changes to the review and adjustment process.
Seven States no longer initiate any reviews of child support orders. (See Table 1 in Appendix A.)
  Thirteen other States perform triennial reviews and have no plans to discontinue them at this
time.


                                          States no longer conducting               28
                                          triennial reviews of public
                                          assistance cases
                                          States planning to                          4
                                          discontinue triennial reviews
                                          of public assistance cases by
                                          2000
                                          States no longer conducting                 7
                                          any IV-D initiated reviews


IV-D Discretionary Reviews

In the 46 States still conducting some IV-D initiated reviews, the extent of review initiation and
review selection policies vary. Most of the States use both an automated system and IV-D
worker discretion to identify cases for review. Frequently, the system identifies a list of cases for
review and the local office or IV-D worker decides whether to conduct the reviews.

Several States now use different criteria to identify cases for review. For example, instead of
selecting cases for review based on receipt of public assistance and date of last review, Illinois



       7       The “big eight” States are California, Florida, Illinois, Michigan, New York, Ohio, Pennsylvania, and
               Texas.

                                                )))))))))))
                                                     5
and Iowa review cases with the potential to add medical support to the court orders. New York
limits its selection of cases for review to cases not modified since prior to September 15, 1989.
South Carolina annually reviews a randomly selected sample of cases in each region of the State.

Cost Of Living Adjustments

At the time of our study, only Minnesota used the COLA method to adjust support orders. 

In Minnesota, a COLA based on the Department of Labor’s consumer price index is applied to all

IV-D child support orders biannually. Minnesota applies COLAs to approximately 34,000 cases

each year, increasing the support awarded statewide by more than $6 million annually. The

State’s costs of operating the COLA are minimal - about $25,000 a year. According to

Minnesota IV-D staff, very few non-custodial parents contest the COLA adjustments to their

court orders.


Eight other States have legislation authorizing the use of a COLA to adjust support orders. New

Jersey and Puerto Rico plan to start using the COLA method by 2000. Iowa and New York will

begin using a COLA by September 1998. Iowa and New York will operate their COLA

programs on a more voluntary basis than Minnesota. In Iowa, COLAs will not be applied

automatically. Either parent can request a COLA if it has been at least 2 years since the support

order was last reviewed or COLA-adjusted. Both parents must agree to the COLA before it is

applied. If one parent does not agree to the COLA, the case will revert to a full review.


In New York, application of the COLA will vary depending on whether or not the custodial

parent is a recipient of public assistance. On public assistance cases, COLAs will be applied to all

cases when the cumulative cost of living index in the years since the order was last reviewed is at

least 10 percent. Application of the COLA in non-public assistance cases will require a request

from either parent and must also meet the same 10 percent cost of living threshold.


Automated Review and Adjustment

No States currently use PRWORA’s automated review option to review and adjust child support
orders entirely through an automated data match. Alaska, Maine and Vermont are experimenting
with methods to do this using OCSE grants. Massachusetts’ system identifies IV-A cases for the
3 year review with the greatest potential for adjustment through an automated match with the
State’s tax and wage data. The local IV-D offices conduct a modified “fast track” review of these
cases followed by an extensive review of the remaining cases.

Thresholds for Adjustment

After reviewing a child support order, 48 States require that any proposed adjustment change the
existing child support order by a minimum percentage and/or monetary amount before making the
adjustment. State percentage thresholds range from 10 percent to 25 percent and dollar
thresholds range from a $10 monthly change in the order to $100 a monthly change in the order.


                                          )))))))))))
                                               6
Forty States adhere to these thresholds even if the order has not been reviewed in the last 3 years.
(See Table 2 in the Appendix A.)

High thresholds may prevent some custodial parents from receiving award increases which,
although incremental, could contribute significantly to the parent’s ability to maintain self-
sufficiency. In the absence of review and adjustment data, States are not able to judge whether
their thresholds prevent many parents from receiving increased awards.

We have concerns about four implementation issues: notification of parents of the right to
request a review, medical support, collection of basic data and downward adjustments.

Responses to our survey and site visit interviews revealed implementation gaps in the review and
adjustment process. While lapses in parent notification indicate possible non-compliance with
Federal law, the other issues raise efficiency and effectiveness concerns.

(1) Notification of Parents

Eighteen States do not currently notify parents every 3 years of their right to request a review of
their child support order. Nine of these States do not plan to implement a routine parental
notification process by the year 2000 as required by welfare reform. Most of these States inform
parents of the right to request a review in their initial order, through websites, public service
announcements or pamphlets or by relying on IV-D workers to inform them. Several States
believe that notifying parents of this right in the initial court order suffices and no additional
notifications are required. Unless parents in these States see the general publicity or are otherwise
advised, they may not be informed of their right to request a review after the notification in the
initial court order.

None of the States we visited use pro-active measures to promote review requests from custodial
parents close to exiting public assistance. According to respondents in these States, the
overwhelming majority of requests for review come from parents on non-public assistance cases
rather than those on public assistance. Since child support collected on public assistance cases is
assigned to the State and not paid to the custodial parent, custodial parents receiving public
assistance seldom request a review of the child support order.

With limited exception, IV-D offices do not trigger reviews for cases close to exiting public
assistance. The Worcester IV-D office in Massachusetts is beginning a project where the local
Department of Transitional Assistance office will notify them of welfare cases nearing the TANF
time limit to prompt reviews. In Oregon, public assistance workers can pend cases to the child
support workers for review, but they are not required to do so.

The point of exit from public aid is an optimal time to encourage custodial parents to request a
review of child support orders since any increase in a child support order could facilitate custodial
parents leaving public assistance and preventing that family’s return to public assistance.
According to an analysis of AFDC exit data, women receiving child support were less likely to

                                          )))))))))))
                                               7
return to AFDC. Likewise, research has shown that the level of child support received by a
young woman in the first years of a child’s life is positively related to her ability to sustain self-
sufficiency later.8 For custodial parents leaving TANF rolls because of mandated time limits,
increased child support payments may be an important part of the safety net of services and funds
for that family, reducing the family’s need for other public benefits.

(2) Medical Support

All States report that they check for medical support availability as part of their review process.
All States, except Arizona, Puerto Rico and Vermont, report that even if their review indicates
that the proposed adjusted order does not meet their thresholds for adjustment, they adjust orders
to add medical support only. Vermont will adjust an order solely to add medical support only if
the parent explicitly asks for medical support to be attached.

Although most States’ policy requires adding medical support to court orders upon review, local
IV-D office implementation of this policy varies. Our interviews with local IV-D office managers
and workers provide a different picture of medical support than the State survey responses
indicate. While most of the State staff interviewed said that medical support is always attached to
court orders when available, local IV-D office managers and workers in 7 of the 10 States we
visited, provided a mix of responses as to whether medical only adjustments are pursued. In these
seven States, at least one of the IV-D workers or local office managers interviewed stated that
they sometimes do not pursue attaching medical support to an order if the order does not
otherwise meet the threshold for adjustment.

In a few of these States, respondents attributed the resistance to adjusting orders for only medical
support to judicial opposition to pursuing adjustments for this single purpose. Judges may resist
hearing medical only adjustments for several reasons. The cost of providing medical support
incurred by the non-custodial parent is often considered in the calculation of the monetary award.
In these cases, attaching medical support may result in a lower monetary order. If a child is
receiving Medicaid, the judge may feel that the current order without medical coverage is
preferable to replacing Medicaid with private coverage and lowering the monetary order.
Respondents also reported that in some cases judges resist hearing medical only adjustments
because they view these cases as a low priority in a voluminous caseload.

In other States, local practice regarding the pursuit of medical support varies simply because local
interpretation of the State’s policy in this area varies. In some cases, caseworkers and local office
managers reported that they did not believe their State’s policy was to pursue medical only
adjustments. In two of the States, confusion regarding when it is appropriate to attach medical
support is the source of variation in local implementation. In these States, the IV-D worker
decides whether medical support should be attached to the court order based on the non-custodial


       8       Daniel Meyer and Marcia Cancian. “Child Support and Economic Well-Being Following an Exit from
               AFDC”, Office of Child Support Enforcement, Child Support Report, Vol. XIX, No. 5, May 1997.

                                              )))))))))))
                                                   8
parent’s wages and the “reasonable cost” of the medical coverage. Child support workers
expressed frustration that they do not have clear guidance on reasonable cost and when they are
expected to use it as a standard to determine whether to pursue medical support.

None of the four States (Iowa, Minnesota, New York, Vermont) using or planning to use the
COLA method in the immediate future report that medical support will be attached to orders as
part of the COLA process. However, in Iowa COLAs will only be applied to cases which already
include medical support. In Iowa, if a parent requests a COLA on a case without medical
support, a full review of the case will be conducted. As some States move to rely on COLAs to
adjust orders, ignoring medical support availability inevitably will result in children with no
medical coverage, when medical coverage is available through the non-custodial parent’s
employment.

(3) Data Collection

Most States, even those with certified child support systems, could not provide the number of
reviews conducted, the number of orders adjusted, average adjustment amounts, the number of
parental requests received, any break-down of the volume of their requests, and the number of
contested adjustments which are altered or eliminated. Only Alaska, Iowa, Illinois, Michigan,
Minnesota and Montana reported having any cost-benefit analysis information on their review and
adjustment process.

(4) Downward Adjustments

Although all States report that non-custodial parents can request review of a support order, some
States vary their treatment of cases based on which parent made the request for review or if the
adjustment will be a decrease, rather than an increase.

Seventeen States proceed with the adjustment process differently if a parent requested review
indicates a decrease in the award is appropriate. In 12 of these 17 States, the IV-D agency
notifies both parties of the potential for a downward adjustment. The non-custodial parent must
file “pro se”9 for the adjustment. In Massachusetts and South Dakota, the IV-D agencies also
expect non-public assistance custodial parents to file pro se for adjustments. Because the Illinois
IV-D agency feels that representing a non-custodial parent to lower a support order constitutes a
conflict of interest regarding the child, they hire a private attorney to represent the non-custodial
parent if the parent files for a downward adjustment. Guam dissuades non-custodial parents from
pursuing any downward adjustments. North Carolina and South Carlina do not adjust any orders
downward. Mississippi has a “clean hands” statute under which only non-custodial parents
without arrears may have their orders reviewed or adjusted.




       9       Pro se means that the party must file for the adjustment on their own behalf.

                                                 )))))))))))
                                                      9
Of these 17 States, 13 of the 14 States which initiate reviews of child support orders also treat
downward adjustments differently than upward adjustments when the IV-D agency initiates the
review. In addition, Ohio which does not treat downward adjustments differently in response to
parent requested reviews, treats downward adjustment differently in response to IV-D initiated
reviews. When a IV-D initiated review indicates the need for a downward adjustment, the Ohio
IV-D agency allows the local IV-D offices the discretion to decide whether or not to pursue
downward adjustments.

Acting independently of stated policy differences, local IV-D offices sometimes treat reviews for
custodial and non-custodial parents differently. For example, in a few of the States we visited,
State policy staff reported that the IV-D agency conducts reviews in response to requests from
non-custodial parents. Yet some local IV-D office managers and workers advised that their
offices do not conduct reviews for non-custodial parents.

Views of the IV-D agency’s role and responsibilities towards non-custodial parents varied among
States, local offices and even among workers within individual offices. Several IV-D workers
emphasized that they feel their responsibility is to custodial parents and their children rather than
the non-custodial parents. Other IV-D workers expressed the belief that the IV-D system should
treat custodial and non-custodial parents equally for fairness and effectiveness reasons.

A few representatives of IV-D agencies who pursue downward adjustments indicated that this
practice engenders greater non-custodial parent cooperation in the child support process.
According to these respondents, non-custodial parents are more inclined to pay their child
support awards if the IV-D agency honors their requests for review and conducts downward
adjustments where appropriate for two reasons: (1) The non-custodial parents view the system as
one that is working with, not against, them and; (2) Non-custodial parents are more likely to stay
current in their payments if the amount due keeps pace with their income. In other words, if a
non-custodial parent’s income drops due to a job loss and the award is not adjusted downward to
a level feasible for the non-custodial parent to pay, they may cease payment all together.

Increased computer system capabilities and a focus on administrative rather than judicial
remedies facilitate the review and adjustment process.

Improvements in automated systems, the use of child support guidelines and an increasing reliance
on administrative rather than judicial processes have converged to make review and adjustment
simpler and less resource intensive for the local IV-D office caseworker.

Automation10 Used to Conduct Reviews




       10      Automation refers to the use of computer systems and interfaces with other databases to conduct the
               reviews.

                                                )))))))))))
                                                     10
Most of the States we visited use automated systems to assist IV-D workers conduct the review
and adjustment process. In 7 of 10 States we visited, the system identifies cases to review;
generates notices to parents and employers soliciting information; checks State wage information;
calculates whether the order meets the threshold for adjustment and generates notices of
determination and any proposed adjustment.

A few State systems contain additional features which facilitate the review and adjustment
process. Massachusetts’ child support system provides IV-D workers with more non-custodial
parent income information by automatic interfaces with the State’s tax and wage databases.
Using these interfaces, their child support system identifies which cases have the greatest potential
for adjustment on cases ready for their 3 year review.

Oregon and Oklahoma take advantage of automated interfaces with State wage data to provide
immediate information to IV-D workers. Whenever a worker opens the computer file on a child
support case, the non-custodial parent’s last quarter earnings are displayed in a corner of the
primary screen for that case. On this screen, the IV-D worker can easily see whether the earnings
appear to be higher and whether a review should be pursued.

The Oregon system also has a mechanism to allow other State staff to automatically notify a
IV-D worker of the potential for adjustment. Staff in the State’s TANF and child support agency
can “pend” a case for review. When this occurs, the system notifies both the IV-D worker and
supervisor that the case is pended and action is required.

Vermont’s child support system also can alert supervisors of actions to be taken by IV-D
workers. Vermont’s system tracks all of the dates that actions are taken on a review and
measures them against the expected action dates under the State’s required time-frames. The
system alerts the supervisor when an expected action date is reached without a recorded action.
The system continues to monitor action on the case and alert management as overdue dates on
events are reached.

Court Involvement and Due Process

Minimal judicial involvement, coupled with due process measures, facilitate the review and
adjustment process. In the majority of the States we visited, judicial involvement is mostly limited
to signing the adjusted orders and hearing contested cases. All of the States we visited appear to
have appropriate mechanisms in place to notify parents of various steps in the review and
adjustment process and to give parents adequate opportunity to contest proposed adjustments.
These pro-active measures, ensuring due process, minimize complications when it comes time to
finalize the adjustment.

The majority of caseworkers interviewed indicated that periodic IV-D initiated reviews are
worthwhile to conduct.



                                          )))))))))))
                                               11
In IV-D offices that initiate reviews of support orders, as well as offices that no longer initiate
reviews, IV-D workers we spoke with pointed out the benefits of a periodic IV-D initiated review
process. These IV-D workers cited reviews that discovered large increases in the non-custodial
parent’s income. The resulting modified child support orders brought additional needed resources
to the non-custodial parent’s children. Several IV-D workers also pointed out that their State
benefits financially from public assistance case reviews, especially when an increased child support
order leads to a family’s leaving public aid.

Although IV-D workers advocated conducting periodic IV-D initiated reviews, several reported
that they do not conduct these reviews on a systematic basis due to limited staff resources and
other office priorities. As a counterpoint to these views, other IV-D workers said that
automation and administrative procedures reduce the time and resources needed to conduct
reviews and adjustments.

The Benefits of Periodic Reviews

Periodic reviews of child support orders detect fluctuations in the income of non-custodial
parents. Although many non-custodial parents may have low earnings when a child is born, their
earning power often matures over the child’s first 18 years of life. Earlier OIG evaluations and
other research demonstrate that even poor fathers can substantially contribute to their children’s
well-being over time, even though payments may not always be regular.11

A modification project in Genesee County, Michigan demonstrated that increased support
payments due to periodic reviews can reduce welfare costs and benefit the families of both TANF
and non-TANF custodial parents. To respond to Federal triennial review requirements, Genesee
County in Michigan conducted a 3 year support modification project, concluding on September
30, 1996. In this project, 2,503 AFDC orders were modified with an average monthly increase of
$44.55 and 1,634 non-AFDC orders were modified with an average monthly increase of $38.95.
Total increased collections through September 30, 1996 were close to $8.5 million.

Over 1,500 AFDC cases were closed after modification of an order under the Genesee project.
Although reasons for AFDC closures were not obtained, Genesee County surmised that increased
child support payments contributed significantly to the closure of many cases. In addition,
according to the Genesee County report, increased payments in non-AFDC cases most likely
deterred some families from applying for public assistance.

A November 1997 Assistant Secretary for Planning and Evaluation (ASPE) report also indicates
that increased support awards, gained through periodic reviews, result in reductions in public
assistance. This report estimates that there will be 116,000 fewer TANF child support order


       11	     Op. Cit. OEI-05-86-00035 and OEI-05-88-00340. Also, the Institute for Research on Poverty Discussion
               Paper (967-92), “Can Fathers Support Children Born Out of Marriage?” by Phillips, Garfinkel and Meyer,
               and Brien and Willis “The Partners of Welfare Mothers: Potential Earnings and Child Support,” The Future
               of Children, Vol. 7, No. 1, Spring 1997, support this notion.

                                               )))))))))))
                                                    12
modifications annually under an optional review regime versus the former triennial approach to

review and adjustments. Since State and Federal agencies share child support collections on

public assistance cases, this reduction is estimated to result in a $136-$291 million annual net

revenue loss to the States and a Federal annual net loss of $89 -$184 million.


The revenue loss represents unrealized increases in child support collections accrued to the

government on behalf of TANF recipients and unrealized savings from the TANF, Food Stamp

and Medicaid programs. Under a mandatory review policy, the program savings would have

resulted through the replacement of program benefits with increased child support awards.


The savings achieved through a mandatory review policy computed in the ASPE report do not

include the benefits of reviews accrued to the families after exiting public assistance. In addition

to the savings accrued by the government, increased awards may be the critical difference

enabling a family to achieve and maintain self-sufficiency. As discussed earlier, reviewing child

support orders when a custodial parent exits public assistance may reduce welfare recidivism and

promote self-sufficiency. An August 1998 General Accounting Office report, “Child Support an

Uncertain Income Supplement for Families Leaving Welfare,” 

GAO/HEHS-98-168, highlights the importance of child support to post-assistance families.





                                          )))))))))))
                                               13
                        RECOMMENDATIONS

Subsequent to our field work and draft report, the President issued the proposed fiscal year 2000
budget calling for the restoration of the periodic review of public assistance child support orders.
In our draft report, we urged a reevaluation of Federal review and adjustment policies in light of
the merits of periodic reviews as demonstrated by the OIG’s past research, other recent research
cited in this report, and caseworker interviews. The findings and recommendations in this report
speak to current conditions and suggest ways to improve the current processes. Our
recommendations would still apply if the review and adjustment changes the Administration
proposes become law.

The Office of Child Support Enforcement should remind States that they are required to
notify parents every 3 years of their right to request a review of child support orders.

The PRWORA requires States to provide notice to parents every 3 years informing them of their
right to request a review of their order. While OCSE has undertaken some steps to ensure that
States are aware of their review and adjustment notification responsibilities, our survey found
some States unclear on this point. At present, 18 States do not provide this notification and 9
States do not have any plans to implement a periodic notification. These States use other
methods to publicize the right to request a review. However, these methods do not uniformly
inform all parents of this right at least once every 3 years. The OCSE should provide State IV-D
agencies with clarification and further guidance on this requirement. The OCSE regional offices
should collect notification method information on States in their regions to ensure parents are
being notified as the law requires.

As State IV-D agencies eliminate or reduce their initiation of reviews of child support orders, the
adjustment of support orders becomes increasingly dependent upon parent-requested reviews.
Parents need to be adequately informed of the right to request a review. Requesting a review of
child support orders may be critical for custodial parents leaving TANF rolls. In these cases,
additional child support payments may be an important part of sustaining self-sufficiency for that
family.

If the periodic review of public assistance child support orders is restored, the onus for initiating
reviews on non-public assistance cases still falls to those parents. Parents need to be adequately
informed in these cases. Additional child support payments may be important in assisting families
maintain their self-sufficiency and avoid welfare dependency. Additionally, non-custodial parents
need to be informed of their rights to request a review, whether or not the custodial parent is
receiving welfare.

The Office of Child Support Enforcement should urge States to use the review and
adjustment process as an opportunity to ensure that medical support is provided.



                                          )))))))))))
                                               14
The OCSE should urge States to use the review and adjustment process as an opportunity to
ensure that medical support is added to support orders, where it is available, even if no monetary
change to the support order occurs. Where needed, OCSE should also work with IV-D agencies
to encourage the judiciary in their State to adjust cases to add medical support in these cases.
Additionally, OCSE should advise the recently-established medical child support working group
of these issues for their consideration.12

The review of child support orders provides IV-D agencies an opportunity to identify health
coverage not previously available. States are required to include health coverage in any child
support order where non-custodial parents have access to group health insurance for their
children. If health insurance is not available at the time of the initial support order, the order must
require non-custodial parents to obtain health coverage if and when it becomes available through
current or future employment. For States to adhere to these requirements, IV-D agencies should
always check for medical support availability when reviewing an order. Available medical
coverage should be added to the support order, even if the order does not otherwise meet a
State’s monetary criteria for adjustment. In some of the States we visited local offices do not
always pursue an adjustment to add medical coverage if the proposed adjusted order does not
meet the minimum monetary or percentage thresholds.

The attachment of medical support to a child’s support order may be the only means of health
insurance available to a child. In the case of children eligible for Medicaid or other public health
programs, the attachment of medical support through the review and adjustment process may lead
to significant reductions in public expenditures on children’s health programs.

The Office of Child Support Enforcement should encourage States to collect basic data on
the review and adjustment process as well as cost-benefit data including requests for
downward modifications.

The OCSE should encourage States to track the reviews the IV-D offices initiate, the reviews the
offices conduct in response to parental requests, including requests for downward adjustments,
and the costs and benefits of conducting these reviews. The OCSE should work with States to
use their certified child support systems to collect this data. Most States do not have any data on
the review and adjustment process. These States are unable to report information on reviews they
conduct or the success of these reviews.

States and OCSE would benefit from data on the review and adjustment process in several ways:




       12	     The Child Support Performance and Incentive Act of 1998 (P.L. 105-200) required the Departments of
               Health and Human Services and Labor to establish a medical support work group to examine a number of
               issues. Among the issues are impediments to medical support and the priority of withholding medical
               support when it might adversely affect the amount of child support payments.

                                               )))))))))))
                                                    15
       C	      Knowledge of the number of requests for reviews that IV-D offices typically
               handle and the number of reviews they initiate would facilitate management of
               local office workloads,

       C	      State and local offices could target their review resources more efficiently if they
               knew whether certain types of cases more typically result in adjustment when
               reviewed and the comparative amounts of the adjustments,

       C	      Data on overturned or altered adjustments would help IV-D offices assess the
               accuracy of their review and adjustment process and contribute to the periodic
               review of State guidelines, and

       C	      Cost benefit data on the review and adjustment process could help determine more
               effective and informed State and Federal policies in the future.

The Administration for Children and Families should encourage States to review child
support orders for families leaving welfare.

In addition to periodically reviewing support orders on public assistance cases, reviews targeted
to parents exiting from TANF warrant particular attention. Reviews conducted as parents exit
from TANF would likely benefit the government through reduced welfare recidivism and
avoidance of the costs associated with receipt of other public benefits. If a custodial parent
receives a higher child support award, they are less likely to need Food Stamps, Medicaid,
emergency assistance or other public benefits after exiting welfare.

Reviews of support orders upon a custodial parent’s exit from public assistance are also likely to
benefit custodial families through enhanced economic well-being. By referring cases near welfare
exit to the local child support office for review, TANF agencies may contribute to the families’
self-sufficiency when off welfare and help the government avoid the costs of further dependence
on public benefits. This type of coordination would serve as a good example of how TANF
agencies and Child Support agencies can work together to achieve the goals of welfare reform.

AGENCY COMMENTS

All agency comments were made to our draft report which preceded the President’s proposed
budget. That proposal calls for a restoration of the triennial review of child support orders by
States on public assistance cases. The Assistant Secretary for Children and Families (ACF) and
the Assistant Secretary for Management and Budget (ASMB) provided formal comments to the
draft report, while the Assistant Secretary for Planning and Evaluation (ASPE) provided informal
comments. All concurred with the report’s findings and recommendations and offered
suggestions for clarifying the report and making technical changes. Where appropriate, we
changed the report to reflect their comments. The text of the ACF and ASMB comments follows
a discussion of their comments.


                                          )))))))))))
                                               16
The ACF requested a chart showing the method of review and adjustment each State uses. We
chose not to include such a chart for several reasons. First, as our report demonstrates, States
have recently or will soon change the methods used for reviewing and adjusting child support
orders. A chart at this time will soon be outdated and unreliable. Second, a very brief notation of
a State’s process may be misleading. We do provide an extensive look at these processes in the
ten States we visited for this report in our companion report, “Review and Adjustment of Support
Orders in Ten States,” OEI-05-98-00102.

The ACF also suggested that our recommendation to collect accurate cost information on
performing reviews and adjustments can be accomplished through a broader effort to collect data
rather than specifically on this issue. While we agree data may be collected in this fashion, we feel
that collecting data specific to reviews and adjustments will make a more compelling case to
Congress of the importance of the periodic review of child support orders.

In concurring with our recommendations, ACF cited their work with father’s groups who are
concerned that child support orders reflect their ability to pay. We agree that having equitable
child support determined is an integral part of the review and adjustment process. We added
language stressing the need for States to collect data on these cases as well as on review and
adjustment cases initiated by States or custodial parents.

Both ACF and ASMB pointed out actions ACF has taken to educate States on the new review
and adjustment requirements. We included these efforts in the report.

Our draft report contained a recommendation that ACF reevaluate Federal policy on review and
adjustments with an emphasis on parents who leave the TANF rolls. The ASMB had expressed
concern over the costs of doing this. However, in the final report and in view of the President’s
calling for legislation requiring States to restore the triennial review of public assistance child
support cases, we changed this recommendation to urge ACF to encourage States to review child
support orders on cases where the family is exiting TANF.

The ASMB questioned whether the parents paying child support would have sufficient funds to
pay adjusted orders over a sustained period of time and whether there was cost avoidance for
governments resulting from increased child support collections. We feel there is ample evidence
to suggest the worthiness of having support orders reviewed and adjusted to reflect the
noncustodial parents’ earnings. Respondents told us that if court orders are considered fair and in
line with the ability to pay, noncustodial parents are more likely to fulfill their child support
obligations. The great bulk of child support payments are deducted automatically by employers
and are not subject to the discretion of the obligors. As such, child support collections are
considerably less discretionary and are much more consistent and reliable for employed
noncustodial parents than they were even 10 years ago. Should noncustodial parents become
unemployed or suffer a long-term reduction in wages, they can and should request to have their
child support order reviewed and adjusted to meet the State’s guidelines. Besides the Genessee
County project we cite in the report that shows the great potential for reducing welfare costs as a
result of adjusted court orders, the report cites earlier OIG and Caliber Associate evaluations that

                                          )))))))))))
                                               17
demonstrate the ability of noncustodial parents to pay child support. We have added citations of
other research that also speaks to these points.

The ASMB noted that States face “Year 2000 problems” and may not be able to provide the
information on reviews and adjustments that we recommend be collected. We believe the “Year
2000 problem” is a short-term problem that States will overcome, and in the future States will be
able to provide this data. Many respondents in States we visited indicated they are expecting
further developments in automation. We expect these advances will enhance their capabilities to
collect data.

The ASMB thought it would be useful to know the percentage of child support caseloads
represented by the ten States we visited. We did not consider State caseload in making our
selections. Our methodology focused on identifying a mix of approaches that States use to review
and adjust child support orders.

The ASMB indicated that the chart on page 4 be expanded to include States that are continuing
the triennial review of cases. We included this information in the text of the report.

The ASMB suggested referencing the review and adjustment work that the Office of Child
Support Enforcement has done and the medical support working group. We have included these
references in the report.

The ASPE comments focused on the importance of collecting information on downward
adjustments to child support orders. We included specific language to the report to emphasize the
need to collect information on all reviews and adjustments.




                                         )))))))))))
                                              18
APPENDIX A


   TABLES





    A - 1

                TABLE 1: IV-D INITIATED REVIEWS


State           Currently conduct          Plan to discontinue   Currently conduct any
                triennial review of all    triennial review by   IV-D initiated reviews
                public assistance orders   12/31/99

Alabama         Yes                        No                    Yes

Alaska          Yes                        Yes                   Yes

Arizona         No                         N/A                   No

Arkansas        No                         N/A                   Yes

California      No                         N/A                   No

Colorado        No                         N/A                   Yes

Connecticut     Yes                        No                    Yes

Delaware        No                         N/A                   No

Florida         No                         N/A                   Yes

Georgia         No                         N/A                   Yes

Guam            Yes                        No                    Yes

Hawaii          No                         N/A                   Yes

Idaho           Yes                        No                    Yes

Illinois        No                         N/A                   Yes

Indiana         No                         N/A                   No

Iowa            No                         N/A                   Yes

Kansas          Yes                        No                    Yes

Kentucky        Yes                        No                    Yes

Louisiana       No                         N/A                   No

Maine           No                         N/A                   Yes

Maryland        Yes                        Yes                   Yes

Massachusetts   Yes                        No                    Yes

Michigan        Yes                        No                    Yes

Minnesota       No                         N/A                   Yes

Mississippi     No                         N/A                   No

Missouri        No                         N/A                   Yes



                                       A - 2

State             Currently conduct          Plan to discontinue   Currently conduct any
                  triennial review of all    triennial review by   IV-D initiated reviews
                  public assistance orders   12/31/99

Montana           No                         N/A                   Yes

Nebraska          Yes                        No                    Yes

Nevada            Yes                        No                    Yes

New Hampshire     Yes                        Yes                   Yes

New Jersey        Yes                        No                    Yes

New Mexico        Yes                        No                    Yes

New York          No                         N/A                   Yes

North Carolina    Yes                        No                    Yes

North Dakota      Yes                        No                    Yes

Ohio              Yes                        No                    Yes

Oklahoma          No                         N/A                   Yes

Oregon            No                         N/A                   Yes

Pennsylvania      Yes                        Yes                   Yes

Puerto Rico       No                         N/A                   Yes

Rhode Island      No                         N/A                   No

South Carolina    Yes                        No                    Yes

South Dakota      Yes                        No                    Yes

Tennessee         No                         N/A                   Yes

Texas             No                         N/A                   Yes

Utah              No                         N/A                   Yes

Vermont           Yes                        No                    Yes

Virginia          Yes                        No                    Yes

Washington        Yes                        No                    Yes

Washington D.C.   Yes                        No                    Yes

West Virginia     No                         N/A                   Yes

Wisconsin         No                         N/A                   Yes

Wyoming           No                         N/A                   Yes




                                         A - 3

                TABLE 2: THRESHOLDS FOR ADJUSTMENT 


State             Thresholds of change in                 Apply threshold if it has been more
                  monthly order which must be             than three years since order was
                  met to adjust a support order           reviewed

Alabama           10%                                     Yes

Alaska            15%                                     Yes

Arizona           15%                                     Yes

Arkansas          $100 (*non-custodial parent’s monthly   Yes
                              or 20%
                  gross income)

California        $50 & 30%                               Yes

Colorado          10%                                     No

Connecticut       15%                                     Yes

Delaware          $25                                     Yes* (unless custodial parent is on TANF)

Florida           $50 or 15%                              No

Georgia           $25 & 15%                               Yes

Guam              10%                                     Yes

Hawaii            $10                                     Yes

Idaho             $50                                     No

Illinois          $10 or 20%                              Yes

Indiana           20%                                     Yes

Iowa              20%                                     Yes

Kansas            No threshold                            NA

Kentucky          15%                                     No

Louisiana         No threshold                            NA

Maine             15%                                     Yes

Maryland          25%                                     Yes

Massachusetts     20%                                     Yes

Michigan          $20 or 10%                              No

Minnesota         $50 & 20%                               Yes

Mississippi       25%                                     Yes

Missouri          20%                                     No


                                               A - 4

State             Thresholds of change in         Apply threshold if it has been more
                  monthly order which must be     than three years since order was
                  met to adjust a support order   reviewed

Montana           $25                             Yes

Nebraska          10%                             Yes

Nevada            15%                             Yes

New Hampshire     $50 & 20%                       Yes

New Jersey        20%                             Yes

New Mexico        No threshold                    NA

New York          10%                             Yes

North Carolina    15%                             No

North Dakota      15%                             Yes

Ohio              10%                             Yes* (option of child support office or court)

Oklahoma          25%                             Yes

Oregon            $50 or 15%                      Yes

Pennsylvania      No threshold                    NA

Puerto Rico       25%                             Yes

Rhode Island      No threshold                    NA

South Carolina    20%                             Yes

South Dakota      $25 & 20%                       Yes

Tennessee         $15 & 15%                       Yes

Texas             $100 or 20%                     Yes

Utah              10%                             Yes

Vermont           10%                             Yes

Virginia          $25 or 10%                      Yes

Washington        $100 & 25%                      Yes* (unless a parent requests the review)

Washington D.C.   15%                             Yes

West Virginia     15%                             Yes* (10% threshold)

Wisconsin         $40 & 10%                       No

Wyoming           20%                             Yes




                                        A - 5

APPENDIX B

AGENCY COMMENTS




   )))))))))))
       B - 1

)))))))))))
    B - 2

)))))))))))
    B - 3

)))))))))))
    B - 4

)))))))))))
    B - 5

)))))))))))
    B - 6

)))))))))))
    B - 7

